      NATIONAL CREDIT UNION ADMINISTRATION

                OFFICE OF INSPECTOR GENERAL


             NCUA FINANCIAL STATEMENT AUDITS
                           FOR

                    OPERATING FUND
                 SHARE INSURANCE FUND
              CENTRAL LIQUIDITY FACILITY
           COMM. DEVELOPMENT LOAN PROGRAM




                For the year ended December 31, 2002

       Audited Financial Statements                Audit Report Number

            NCUA Operating Fund                        OIG-03-02
  National Credit Union Share Insurance Fund           OIG-03-03
            Central Liquidity Facility                 OIG-03-04
Community Development Revolving Loan Program           OIG-03-05



                               March 31, 2003




                                  Herb Yolles
                               Inspector General
                              EXECUTIVE SUMMARY


                            The National Credit Union Administration (NCUA) Office of
PURPOSE AND SCOPE           Inspector General contracted with the independent public
 accounting firm of Deloitte & Touche LLP to perform the financial statement audits of the
 NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and the
 Community Development Revolving Loan Program, for the year ended December 31,
 2002.

 The purpose of the audits is to express an opinion on whether the financial statements
 are fairly presented. The independent firm also reviewed the internal control structure
 over financial reporting and evaluated compliance with certain provisions of laws and
 regulations, relating to financial reporting as part of their audit.

 The audits were performed in accordance with generally accepted auditing standards
 and Government Auditing Standards issued by the Comptroller General of the United
 States.

                                         The Inspector General contracted with Deloitte
FINANCIAL STATEMENT CONTRACT
                                         & Touche LLP in September 2001 to perform
 the financial statement audits mentioned above. The contract was for 2001, with an
 option for 2002. The Deputy Inspector General is the contracting officer’s technical
 representative for this contract.

                      Deloitte & Touche LLP expressed unqualified opinions, stating that
AUDIT RESULTS
                      the financial statements present fairly, in all material respects, the
 financial position of the NCUA Operating Fund, the Share Insurance Fund, the Central
 Liquidity Facility, and the Community Development Revolving Loan Program, at
 December 31, 2002, and the results of operations for the year then ended.

 Although Deloitte & Touche LLP does not express an overall opinion of the Funds’
 compliance with laws and regulations, their testing of compliance did not disclose any
 significant deviations.

 Deloitte & Touche LLP did not find any matters considered to be material weaknesses
 in their review of the Funds’ internal control structures pertinent to financial reporting.
 However, during the performance of the audit, we developed recommendations related
 to internal control over financial reporting and certain observations and
 recommendations on other accounting, administrative, and operating matters. The
 observations and recommendations section of this report is restricted to official use only.
National Credit Union
Administration
Operating Fund
Financial Statements for the Years Ended
December 31, 2002 and 2001, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                   Page

INDEPENDENT AUDITORS’ REPORT                                        1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2002 AND 2001:

   Balance Sheets                                                   2

   Statements of Revenues, Expenses, and Changes in Fund Balance    3

   Statements of Cash Flows                                         4

   Notes to Financial Statements                                   5-9




7158 - 11\01
Deloitte & Touche LLP
1750 Tysons Boulevard
McLean, VA 22102-4219

Tel: 703-251-1000
Fax: 703-251-3400
www.us.deloitte.com




 INDEPENDENT AUDITORS’ REPORT


 Inspector General
 National Credit Union Administration

 We have audited the accompanying balance sheets of the National Credit Union Administration Operating
 Fund as of December 31, 2002 and 2001, and the related statements of revenues, expenses, and changes in
 fund balance, and of cash flows for the years then ended. These financial statements are the responsibility of
 the National Credit Union Administration Operating Fund’s management. Our responsibility is to express an
 opinion on these financial statements based on our audits.

 We conducted our audits in accordance with auditing standards generally accepted in the United States of
 America and the standards applicable to financial audits contained in Government Auditing Standards,
 issued by the Comptroller General of the United States. Those standards require that we plan and perform the
 audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
 An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
 statements. An audit also includes assessing the accounting principles used and significant estimates made by
 management, as well as evaluating the overall financial statement presentation. We believe that our audits
 provide a reasonable basis for our opinion.

 In our opinion, such financial statements present fairly, in all material respects, the financial position of the
 National Credit Union Administration Operating Fund as of December 31, 2002 and 2001, and the results of its
 operations and its cash flows for the years then ended in conformity with accounting principles generally
 accepted in the United States of America.

 In accordance with Government Auditing Standards, we have also issued our report dated February 28,
 2003, on our tests of the National Credit Union Administration Operating Fund’s compliance with certain
 provisions of laws, regulations, contracts, and grants, and our consideration of its internal control over financial
 reporting. This report is an integral part of an audit performed in accordance with Government Auditing
 Standards and should be read in conjunction with this report in considering the results of our audit.




 February 28, 2003
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
DECEMBER 31, 2002 AND 2001
(Dollars in thousands)

ASSETS
                                                  2002       2001
ASSETS:
 Cash and cash equivalents                      $ 18,582   $ 15,880
 Due from National Credit Union Share
  Insurance Fund (Note 4)                           670      1,723
 Employee advances                                  254        529
 Other accounts receivable                           96         93
 Prepaid expenses                                    97        265
 Fixed assets—net of accumulated depreciation
  and amortization (Note 3)                      36,197     38,455
 Employee residences held for resale                           269

TOTAL ASSETS                                    $ 55,896   $ 57,214

LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                               $ 3,311    $ 5,395
 Obligations under capital leases (Note 5)          548      2,285
 Accrued wages and benefits                       4,987      4,798
 Accrued annual leave                             7,669      7,531
 Accrued employee travel                            776        776
 Notes payable to National Credit Union
  Share Insurance Fund (Note 4)                  28,922     30,335

       Total liabilities                         46,213     51,120

FUND BALANCE                                      9,683      6,094

TOTAL LIABILITIES AND FUND BALANCE              $ 55,896   $ 57,214


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)


                                                        2002       2001

REVENUES:
 Operating fees                                       $ 53,820   $ 46,858
 Interest                                                  565        989
 Other                                                     188        161

       Total revenues                                  54,573     48,008

EXPENSES (Note 4):
 Employee wages and benefits                           39,842     33,266
 Travel                                                 4,146      4,046
 Rent, communications, and utilities                    1,553      1,226
 Contracted services                                    1,987      1,950
 Other                                                  3,456      3,660

       Total expenses                                  50,984     44,148

EXCESS OF REVENUES OVER EXPENSES                        3,589      3,860

FUND BALANCE, BEGINNING OF YEAR                         6,094      2,234

FUND BALANCE, END OF YEAR                             $ 9,683    $ 6,094


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)

                                                                       2002       2001
CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                    $ 3,589    $ 3,860
 Adjustments to reconcile excess of revenues over
   expenses to cash provided by operating activities:
    Depreciation and amortization                                      3,406      3,574
    Loss on disposal of employee residences held for resale               16         28
    Loss on disposal of fixed assets                                      54          9
    Miscellaneous allowances                                              (4)         1
 (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                1,053       (785)
    Employee advances                                                    275        134
    Other accounts receivable                                             (3)        60
    Prepaid expenses                                                     168        164
 (Decrease) increase in liabilities:
    Accounts payable                                                  (2,084)     1,774
    Accrued wages and benefits                                           189        306
    Accrued annual leave                                                 138        863
    Accrued employee travel                                                           9

       Net cash provided by operating activities                       6,797      9,997

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets and employee residences held for resale    (1,517)    (1,272)
 Proceeds from sale of employee residences held for resale               595        265

       Net cash used in investing activities                            (922)    (1,007)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable                                          (1,413)    (1,413)
 Principal payments under capital lease obligations                   (1,760)    (1,620)

       Net cash used in financing activities                          (3,173)    (3,033)

NET INCREASE IN CASH AND CASH EQUIVALENTS                              2,702      5,957

CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                          15,880      9,923

CASH AND CASH EQUIVALENTS, END OF YEAR                               $ 18,582   $ 15,880


SUPPLEMENTAL DISCLOSURE OF CASH FLOW INFORMATION:
 Interest paid during the years ended December 31, 2002 and 2001,
 was $1,210 and $1,695, respectively.

SUPPLEMENTAL DISCLOSURE OF NONCASH FINANCING ACTIVITIES:
 Capital lease obligations of $23 and $45 were incurred when the
 Fund entered into leases for new equipment during the years ended
 December 31, 2002 and 2001, respectively.


See notes to financial statements.


-4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2002 AND 2001


1.    ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the “Fund”) was created by the Federal
     Credit Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury
     under the management of the National Credit Union Administration (“NCUA”) Board for the purpose
     of providing administration and service to the Federal Credit Union System.

2.    SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents—The Federal Credit Union Act permits the Fund to make investments in United
     States Government securities or securities guaranteed as to both principal and interest by the United
     States Government. Cash equivalents are highly liquid investments with original maturities of three
     months or less. All investments in 2002 and 2001 were cash equivalents and are stated at cost, which
     approximates fair value.

     Depreciation and Amortization—Building, furniture and equipment, equipment under capital leases, and
     leasehold improvements are recorded at cost. Depreciation and amortization are computed by the
     straight-line method over the estimated useful lives of the building, furniture and equipment, and the shorter
     of the estimated useful life or lease term for leasehold improvements. Estimated useful lives are forty years
     for the building and three to ten years for the furniture, equipment, and leasehold improvements.

     Operating Fees—The Fund assesses each federally chartered credit union an annual fee based on the
     credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
     providing administration and service to the Federal Credit Union System. The Fund recognizes this
     operating fee revenue ratably over the year.

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c)(1) of the
     Internal Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:
           Cash and cash equivalents, receivable from National Credit Union Share Insurance Fund
           (“NCUSIF”), employee advances, other accounts receivable, accounts and notes payable to
           NCUSIF, and other accounts payable are recorded at book values, which approximate the
           respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and



-5-
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

     Disclosure About Recent Accounting Pronouncements—In June 2002, Statement of Financial
     Accounting Standards (“SFAS”) No. 146, Accounting for Costs Associated with Exit or Disposal
     Activities, was issued. This statement requires that a liability for a cost associated with an exit or
     disposal activity be recognized when the liability is incurred rather than the date of an entity's
     commitment to an exit plan. The statement is effective for exit or disposal activities that are initiated
     after December 31, 2002. The Fund’s adoption of SFAS No. 146 will have an effect on the timing of
     the recognition of the costs of its regional restructuring plan. Such impact is described in Note 9,
     Subsequent Events.
3.    FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):
                                                                                        2002          2001
        Office building and land                                                    $ 42,453       $ 42,419
        Furniture and equipment                                                       10,607          9,592
        Equipment under capital leases                                                 4,918          5,035

                      Total                                                            57,978         57,046
        Less: Accumulated depreciation and amortization                               (21,781)       (18,591)

        Fixed assets—net                                                            $ 36,197       $ 38,455
     Accumulated amortization balances for equipment under capital leases as of December 31, 2002 and
     2001, were $4,432,000 and $2,881,000, respectively.
4.    TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board derived from a
     study of actual usage. The allocation factors were 62.00% and 66.72% to NCUSIF for 2002 and
     2001, respectively. The cost of the services allocated to NCUSIF, which totaled approximately
     $83,182,000 and $88,508,000 for 2002 and 2001, respectively, is reflected as a reduction of the
     corresponding expenses in the accompanying financial statements.
     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with NCUSIF for the purchase
     of a building. Interest costs incurred were approximately $46,000 and $66,000 for 2002 and 2001,
     respectively. The outstanding principal balances at December 31, 2002 and 2001, were $1,098,000 and
     $1,170,000, respectively.
     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured
     term note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a new
     building. Interest costs incurred were approximately $1,164,000 and $1,629,000 for 2002 and 2001,
     respectively. The note payable balances at December 31, 2002 and 2001, were approximately
     $27,824,000 and $29,165,000, respectively.


-6-
     The above notes require principal repayments as follows (in thousands):
                                                                      Unsecured Secured
                                                                      Term Note Term Note         Total
        2003                                                           $     72      $ 1,341    $ 1,413
        2004                                                                 72        1,341      1,413
        2005                                                                 72        1,341      1,413
        2006                                                                 72        1,341      1,413
        2007                                                                 72        1,341      1,413
        Thereafter                                                          738       21,119     21,857
                                                                       $ 1,098       $ 27,824   $ 28,922
     The variable rate on both notes is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 2002 and 2001 were 4.09% and 5.47%, respectively. The interest rates at
     December 31, 2002 and 2001, were 3.51% and 4.56%, respectively.
5.    LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into a number of lease agreements with
     vendors for the rental of office space as well as the lease of office equipment that includes laptops,
     printers, monitors, and copiers.
     Operating Leases—The Fund leases office space under lease agreements that expire through 2007.
     Office rental charges amounted to approximately $1,009,000 and $966,000 of which approximately
     $625,500 and $654,500 was reimbursed by NCUSIF for 2002 and 2001, respectively. In addition,
     the Fund leases office equipment under operating leases with lease terms of less than one year.

     Capital Leases—The Fund leases computer equipment under lease agreements that expire through
     2006.
     The future minimum lease payments as of December 31, 2002, are as follows (in thousands):

                                                                        Operating Capital
                                                                         Leases   Leases

               2003                                                        $ 828      $ 504
               2004                                                          858         42
               2005                                                          346          9
               2006                                                          199          6
               2007                                                          183

                      Total                                                $ 2,414      561

               Less: Imputed interest                                                   (13)

               Present value of minimum
                lease payments                                                        $ 548
     Based on the allocation factor approved by the NCUA Board for 2002, NCUSIF will reimburse the
     Fund for approximately 62% of the future operating lease payments.



-7-
6.    RETIREMENT PLAN

     The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
     includes the Federal Employees’ Retirement System (“FERS”). Both plans are defined benefit
     retirement plans covering all of the employees of the Fund. FERS is comprised of a Social Security
     Benefits Plan, a Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a
     percentage of employees’ gross pay. Under the Savings Plan, employees can also elect additional
     contributions between 1% and 10% of their gross pay, and the Fund will match up to 5% of the
     employees’ gross pay. In 2002 and 2001, the Fund’s contributions to the plans were approximately
     $10,783,000 and $10,310,000, respectively, of which approximately $6,685,000 and $6,879,000
     were reimbursed by NCUSIF, respectively.

     The Fund does not account for the assets of the above plans and does not have actuarial data with
     respect to accumulated plan benefits or the unfunded liability relative to eligible employees. These
     amounts are reported by the U.S. Office of Personnel Management for the Civil Service Retirement and
     Disability Fund and are not allocated to individual employers.
7.    DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows (in
     thousands):
                                                         December 31, 2002             December 31, 2001
                                                        Carrying     Fair             Carrying      Fair
                                                        Amount      Value             Amount      Value
        Cash and cash equivalents                      $ 18,582      $ 18,582         $ 15,880     $ 15,880
        Due from NCUSIF                                     670           670            1,723        1,723
        Employee advances                                   254           254              529          529
        Other accounts receivable                            96            96               93           93
        Accounts payable                                  3,311         3,311            5,395        5,395
        Obligation under capital lease                      548           548            2,285        2,285
        Notes payable to NCUSIF                          28,922        28,922           30,335       30,335

8.    CONTINGENCIES

     NCUA is currently a party to a number of disputes that involve or may involve litigation. In the opinion
     of management, the ultimate liability with respect to these disputes, if any, will not be material to
     NCUA’s financial position.

9.    SUBSEQUENT EVENTS

     NCUA announced on January 29, 2003 a regional restructuring plan, previously approved by the
     Board on November 21, 2002. The restructuring plan will relocate the Region VI office in Concord,
     California, to Phoenix, Arizona, and renumber it to Region V. The plan will also close the Region IV
     regional office in Chicago, Illinois. The process of relocating Region VI will begin immediately and be
     completed no later than December 2004. Region V, located in Austin, Texas, will be renumbered to



-8-
  become Region IV. Credit union supervision will be aligned with the five regions, and this alignment is
  scheduled to become effective as of January 1, 2004.

  NCUA estimates that the costs to be incurred for the regional restructuring plan will be $7,466,000,
  which includes relocation costs of $6,016,000 and severance costs of $980,000. The majority of the
  costs are anticipated to be incurred during 2003 and 2004. Based on the allocation factors approved
  by the NCUA Board, the Fund is responsible for 38.00% of the total restructuring costs, or
  $2,837,000.
                                               ******




-9-
 National Credit Union
 Share Insurance Fund
Financial Statements for the Years Ended
December 31, 2002 and 2001, and
Independent Auditors' Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                             Page

INDEPENDENT AUDITORS’ REPORT                  1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2002 AND 2001:

   Balance Sheets                             2

   Statements of Operations                   3

   Statements of Fund Balance                 4

   Statements of Cash Flows                   5

   Notes to Financial Statements             6-14




7161 – 11\01
Deloitte & Touche LLP
1750 Tysons Boulevard
McLean, VA 22102-4219

Tel: 703-251-1000
Fax: 703-251-3400
www.us.deloitte.com




 INDEPENDENT AUDITORS’ REPORT


 Inspector General
 National Credit Union Administration

 We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund as of
 December 31, 2002 and 2001, and the related statements of operations, fund balance and cash flows for the
 years then ended. These financial statements are the responsibility of the National Credit Union Share
 Insurance Fund’s management. Our responsibility is to express an opinion on these financial statements based
 on our audits.

 We conducted our audits in accordance with auditing standards generally accepted in the United States of
 America and the standards applic able to financial audits contained in Government Auditing Standards,
 issued by the Comptroller General of the United States. Those standards require that we plan and perform the
 audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
 An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
 statements. An audit also includes assessing the accounting principles used and significant estimates made by
 management, as well as evaluating the overall financial statement presentation. We believe that our audits
 provide a reasonable basis for our opinion.

 In our opinion, such financial statements present fairly, in all material respects, the financial position of the
 National Credit Union Share Insurance Fund as of December 31, 2002 and 2001, and the results of its
 operations and its cash flows for the years then ended in conformity with accounting principles generally
 accepted in the United States of Americ a.

 In accordance with Government Auditing Standards, we have also issued our report dated February 28,
 2003, on our tests of the National Credit Union Share Insurance Fund’s compliance with certain provisions of
 laws, regulations, contracts, and grants, and our consideration of its internal control over financial reporting.
 That report is an integral part of an audit performed in accordance with Government Auditing Standards and
 should be read in conjunction with this report in considering the results of our audit.




 February 28, 2003
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
DECEMBER 31, 2002 AND 2001
(Dollars in thousands)


ASSETS                                                                   2002            2001

ASSETS:
 Investments (Note 6)                                              $ 4,535,537     $ 3,648,578
 Cash and cash equivalents                                           1,008,693       1,335,753
 Accrued interest receivable                                            69,174          67,178
 Capital assessment receivable                                           3,697
 Assets acquired in assistance to insured credit unions                 15,417           10,437
 Capital notes advanced to insured credit unions                                          2,000
 Notes receivable—National Credit Union
  Administration Operating Fund (Note 8)                                 28,922          30,335
 Other notes receivable and advances                                                        173
 Fixed assets—net of accumulated depreciation
  and amortization (Note 3)                                                 265           1,029

TOTAL ASSETS                                                       $ 5,661,705     $ 5,095,483


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Estimated losses from supervised credit unions (Note 4)           $     47,543    $     51,023
 Amounts due to insured shareholders of liquidated credit unions          6,228           6,092
 Due to National Credit Union Administration
  Operating Fund (Note 8)                                                   670           1,723
 Accounts payable                                                             3              64
 Obligations under capital leases (Note 9)                                  165             793

       Total liabilities                                                 54,609          59,695

FUND BALANCE:
 Insured credit unions' accumulated contributions                      4,267,169       3,812,459
 Insurance fund balance                                                1,339,927       1,223,329

       Total fund balance                                              5,607,096       5,035,788

TOTAL LIABILITIES AND FUND BALANCE                                 $ 5,661,705     $ 5,095,483


See notes to financial statements.




-2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)


                                               2002        2001

REVENUES:
 Interest                                    $ 213,252   $ 252,853
 Other                                           1,226       1,703

       Total revenues                         214,478     254,556

EXPENSES (Note 8):
 Administrative expenses:
  Employee wages and benefits                  65,005      66,692
  Travel                                        6,764       8,111
  Rent, communications, and utilities           2,533       2,457
  Contracted services                           3,241       3,910
  Provision for insurance losses (Note 4)      12,513
  Other                                         7,824       9,335

       Total expenses                          97,880      90,505

EXCESS OF REVENUES OVER EXPENSES             $ 116,598   $ 164,051


See notes to financial statements.




-3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF FUND BALANCE
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)

                                               Insured
                                            Credit Unions'   Insurance
                                            Accumulated        Fund
                                            Contributions     Balance

BALANCE AT JANUARY 1, 2001                   $ 3,468,932     $ 1,158,768

 Contributions from insured credit unions       343,527

 Excess of revenues over expenses                               164,051

 Dividends to insured credit unions                             (99,490)

BALANCE AT DECEMBER 31, 2001                  3,812,459       1,223,329

 Contributions from insured credit unions       454,710

 Excess of revenues over expenses                               116,598

BALANCE AT DECEMBER 31, 2002                 $ 4,267,169     $ 1,339,927


See notes to financial statements.




-4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)

                                                                         2002          2001

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                     $ 116,598     $ 164,051
 Adjustments to reconcile excess of revenues over
   expenses to cash provided by operating activities:
    Depreciation and amortization                                            764           767
    Reserves (recoveries) relating to losses from supervised
     credit unions—net                                                    (3,480)       (4,736)
 (Increase) decrease in assets:
    Accrued interest receivable                                           (1,996)        2,083
    Capital assessment receivable                                         (3,697)
    Assets acquired in assistance to insured credit unions, net           (4,980)       (1,363)
    Capital notes advanced to insured credit unions, net                   2,000        (1,854)
    Other notes receivable and advances                                      173           (61)
 (Decrease) increase in liabilities:
    Amounts due to National Credit Union
    Administration Operating Fund                                         (1,053)          785
    Amounts due to insured shareholders of liquidated credit unions          136        (1,002)
    Accounts payable                                                         (61)           57

       Net cash provided by operating activities                         104,404       158,727

CASH FLOWS FROM INVESTING ACTIVITIES
 Purchase of investments                                              (2,493,156)   (1,331,406)
 Proceeds from maturities of investments                               1,606,197     1,165,558
 Collections on note receivable—National Credit
  Union Administration Operating Fund                                      1,413         1,413

       Net cash used in investing activities                            (885,546)     (164,435)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                454,710       343,527
 Dividends to insured credit unions                                                    (99,490)
 Principal payments under capital lease obligation                          (628)         (581)

       Net cash provided by financing activities                         454,082       243,456

NET (DECREASE) INCREASE IN CASH AND CASH
 EQUIVALENTS                                                            (327,060)      237,748
CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                           1,335,753     1,098,005

CASH AND CASH EQUIVALENTS, END OF YEAR                                $ 1,008,693   $ 1,335,753


See notes to financial statements.

-5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2002 AND 2001


1.    ORGANIZATION AND PURPOSE

     The National Credit Union Share Insurance Fund (the “Fund”) was created by the Public Law 91-468
     (Title II of the Federal Credit Union Act), which was amended in 1984 by Public Law 98-369. The
     Fund was established as a revolving fund in the United States Treasury under the management of the
     National Credit Union Administration (“NCUA”) Board for the purpose of insuring member share
     deposits in all federal credit unions and in qualifying state credit unions that request insurance. The
     maximum amount of insurance is $100,000 per shareholder account.
     NCUA exercises direct supervisory authority over federal credit unions and coordinates required
     supervisory involvement with the state chartering authority for state-chartered credit unions insured by
     the Fund. Insured credit unions are required to report certain financial and statistical information to
     NCUA on a semiannual or quarterly basis depending on the size of the credit union and are subject to
     periodic examination by NCUA. Information derived through the supervisory and examination process
     provides the Fund with the ability to identify credit unions experiencing financial difficulties that may
     require assistance from the Fund.
     Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their operations
     if these difficulties are considered by the Fund to be temporary or correctable. This special assistance
     may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or cash
     assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a merger
     partner may be sought. If the assistance or merger alternatives are not practical, the credit union is
     liquidated.
     The first form of special assistance is waivers of statutory reserve requirements, whereby the credit
     union is permitted to cease making additions to its regular reserve and, in more severe cases, to
     commence charging operating losses against its regular reserve. When all reserves have been depleted
     by the credit union, the fund may provide a reserve guarantee account in the amount of the reserve
     deficit. In addition, the Fund may provide cash assistance in the form of share deposits and capital
     notes, or may purchase assets from the credit union.
     Mergers of financially troubled credit unions with stronger credit unions may also require Fund
     assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
     Fund, and/or guarantees of the values of certain assets (primarily loans).
     When a credit union is no longer able to continue operating and the merger and assistance alternatives
     are not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares
     up to the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
     guaranteed to third-party purchasers by the Fund.




-6-
2.    SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents and Investments—Title II of the Federal Credit Union Act limits the Fund’s
     investments to United States Government securities or securities guaranteed as to both principal and
     interest by the United States Government. Cash equivalents are highly liquid investments with original
     maturities of three months or less. All investments are classified as held-to-maturity under Statement of
     Financial Standards No. 115, Accounting for Certain Investments in Debt and Equity Securities.
     Accordingly, the Fund records investments at amortized cost. Amortized cost is the face value of the
     securities plus the unamortized premium or less the unamortized discount.
     Depreciation and Amortization—Furniture, equipment and capital leases are recorded at cost.
     Depreciation and amortization are computed by the straight-line method over the estimated useful lives
     of the furniture and equipment and the shorter of the estimated useful life or lease term for capital leases.
     Estimated useful lives are three years for the furniture, equipment and capital leases.
     Advances to Insured Credit Unions—The Fund provides cash assistance in the form of interest and
     noninterest-bearing capital notes (carried at face value), share deposits, and loans to certain credit
     unions to assist them in continuing their operations.
     Assets Acquired from Credit Unions—The Fund acquires the assets of liquidating credit unions
     pending their ultimate disposition. To assist in the merger of credit unions, the Fund may purchase
     certain credit union assets. In addition, the Fund may provide cash assistance by acquiring non-
     performing assets of a credit union experiencing financial difficulty. These acquired assets are
     maintained by the Asset Management and Assistance Center in Austin, Texas, and are recorded by the
     Fund at their estimated net realizable value.
     Premium Revenue—The Fund may assess each insured credit union a premium charge for insurance
     in an amount stated as a percentage of insured shares outstanding as of December 31 of the preceding
     insurance year if the Fund’s equity ratio is less than 1.3%. The NCUA Board waived the 2002 and
     2001 share insurance premiums (see Note 5).
     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c)(1) of the
     Internal Revenue Code.
     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:
      a.   Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate
           fair values.

      b.   Investments—The fair value for investments is the quoted market value.

      c.   Capital Notes and Other Notes Receivable—It is not practicable to estimate the fair value of
           these assets as there is no secondary market. The Fund has the ability and the intention to hold
           these notes to maturity.

      d.   Other—Accrued interest receivable, capital assessment receivable, notes receivable from NCUA
           Operating Fund, payable to NCUA Operating Fund, lease obligations, due to insured shareholders of



-7-
           liquidated credit unions and other accounts payable are recorded at book values, which approximate
           the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions, particularly the estimated losses from supervised credit unions, that affect the reported
     amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from management’s estimates.
     Recent Accounting Pronouncements—In June 2002, Statement of Financial Accounting Standards
     (“SFAS”) No. 146, "Accounting for Costs Associated with Exit or Disposal Activities" was issued.
     This statement requires that a liability for a cost associated with an exit or disposal activity be recognized
     when the liability is incurred rather than the date of an entity's commitment to an exit plan. The
     statement is effective for exit or disposal activities that are initiated after December 31, 2002. The
     Fund’s adoption of SFAS No. 146 will have an effect on the timing of the recognition of the costs of its
     regional restructuring plan. Such impact is described in Note 13, Subsequent Events.
     In November 2002, the Financial Accounting Standards Board issued Interpretation No. 45,
     “Guarantor’s Accounting and Disclosure Requirements for Guarantees, Including Indirect Guarantees of
     Indebtedness of Others” (“FIN 45”). This interpretation elaborates on the existing disclosure
     requirements for most guarantees, including loan guarantees. It also clarifies that at the time an entity
     issues a guarantee, the entity must recognize an initial liability for the fair value of the obligations it
     assumes under that guarantee and must disclose that information in its financial statements. This
     guidance does not apply to certain guarantee contracts, such as those issued by insurance companies or
     for a lessee’s residual value guarantee embedded in a capital lease. The initial recognition and
     measurement provisions of FIN 45 apply on a prospective basis to guarantees issued or modified after
     December 31, 2002, regardless of the guarantor’s fiscal year-end. The disclosure requirements are
     effective for financial statements of interim or annual periods ending after December 15, 2002. The
     Fund does not expect the adoption of FIN 45 to have a material impact on its financial position or
     results of operations.
3.    FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):
                                                                                              December 31,
                                                                                             2002     2001
        Furniture and equipment                                                            $ 522        $ 522
        Equipment under capital leases                                                      1,781        1,781
                Total                                                                        2,303       2,303
        Less: Accumulated depreciation and amortization                                     (2,038)     (1,274)
        Total fixed assets—net                                                             $ 265        $ 1,029
     Accumulated amortization balances for equipment under capital leases as of December 31, 2002 and
     2001, totaled $1,628,000 and $1,038,000, respectively.


-8-
4.    PROVISION FOR INSURANCE LOSSES

     Management identifies credit unions experiencing financial difficulty through the Fund’s supervisory and
     examination process. The estimated losses from these supervised credit unions are determined by
     management on a specified case basis. Management also evaluates overall economic trends and
     monitors potential system-wide risk factors such as increasing levels of consumer debt, bankruptcies,
     and delinquencies. Nonspecified case reserve requirements are determined based upon an assessment
     of insured risk and historic loss experience. The anticipated losses are net of estimated recoveries from
     the disposition of the assets of failed credit unions.
     Total insurance in force as of December 31, 2002 and 2001, is $443 billion and $404 billion,
     respectively, which includes natural person and corporate credit unions. The total net reserves for
     identified and anticipated losses from supervised credit unions’ failures is $48 million and $51 million at
     December 31, 2002 and 2001, respectively. Should there be no recoveries provided during the
     resolution process, possible additional reserves for $23 million and $27 million would be required as of
     December 31, 2002 and 2001, respectively.
     In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
     loans) to third-party purchasers or to credit unions to facilitate mergers. The Fund would be obligated
     upon non-performance. Such guarantees totaled approximately $0 and $2,217,000 at December 31,
     2002 and 2001, respectively. The estimated losses from asset and merger guarantees are determined
     by management on a case-by-case evaluation.
     In addition, the Fund may grant a guaranteed line-of-credit to a third party credit provider, such as a
     corporate credit union or bank, if a credit union has a current or immediate liquidity concern and the
     credit provider has refused to extend credit without a guarantee. The Fund would be obligated if the
     credit union failed to perform. Total line-of-credit guarantees of credit unions at December 31, 2002
     and 2001, are approximately $1,800,000 and $200,000, respectively. The total balances outstanding
     under these line-of-credit guarantees at December 31, 2002 and 2001, are approximately $80,000 and
     $77,000, respectively.
     The activity in the reserves for estimated losses from supervised credit unions was as follows (in
     thousands):
                                                                                            Year Ended
                                                                                           December 31,
                                                                                         2002        2001

        BEGINNING BALANCE                                                            $ 51,023       $ 55,759

          Insurance losses                                                             (21,625)        (9,204)
          Recoveries                                                                     5,632          4,468
          Provision for insurance losses                                                12,513            -

        ENDING BALANCE                                                               $ 47,543       $ 51,023




-9-
5.    FUND CAPITALIZATION

     The Credit Union Membership Access Act of 1998 (“CUMAA”) mandated changes to the Fund’s
     capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
     with the Fund a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
     each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
     determined by the NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in
     the case of an insured credit union with total assets of not more than $50,000,000; and (ii) semiannually,
     in the case of an insured credit union with total assets of $50,000,000 or more. The annual and
     semiannual adjustments are based on member share deposits outstanding as of December 31 of the
     preceding year and June 30 of the current year, respectively. The 1% contribution will be returned to
     the insured credit union in the event that its insurance coverage is terminated, or is obtained from another
     source, or the operations of the Fund are transferred from the NCUA Board.
     The CUMAA mandates certain premium charges from insured credit unions and distributions from the
     Fund under certain circumstances. A premium charge to insured credit unions is required if the Fund’s
     equity ratio (as defined in the CUMAA) falls below 1.2% of insured shares. Also, pro rata distributions
     to insured credit unions after each calendar year are required if, as of year-end:
      (i)    Any loans to the Fund from the Federal Government, and any interest on those loans, have been
             repaid;

      (ii)   The Fund’s equity ratio exceeds the normal operating level (as defined in the CUMAA, an equity
             ratio specified by the NCUA Board, which shall be not less than 1.2% and not more than 1.5%);
             and

      (iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1.0%.

     The NCUA Board has determined that the normal operating level is 1.30% at December 31, 2002 and
     2001. The calculated equity ratios at December 31, 2002 and 2001, were 1.27% and 1.25%,
     respectively.
     Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which are
     based upon year-end reports of insured shares. Accordingly, dividends associated with insured shares
     at year-end are declared and paid in the subsequent year.
     The NCUA Board has declared that no dividends were payable on insured shares as of December 31,
     2002 and 2001, because the equity ratios, 1.27% and 1.25%, respectively, were below the normal
     operating level of 1.30%. Dividends of $99,490,000, which were associated with insured shares as of
     December 31, 2000, were declared and paid in 2001. Total insured shares as of December 31, 2002
     and 2001, were $443 billion and $404 billion, respectively.
6.    INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured credit unions
     and liquidation activities is invested in U.S. Treasury securities.




- 10 -
     Investments consist of the following (in thousands):
                                                              December 31, 2002
                                       Yield to                   Gross        Gross         Estimated
                                      Maturity      Amortized   Unrealized Unrealized         Market
                                      at Market       Cost        Gains       Losses           Value

         U.S. TREASURY
          SECURITIES:
          Maturities up to one year      4.59 % $ 2,224,524     $ 36,008      $    -        $ 2,260,532
          Maturities after one year
           through five years            3.18 %     2,311,013      56,394                    2,367,407

               Total                              $ 4,535,537   $ 92,402      $    -        $ 4,627,939

                                                              December 31, 2001
                                       Yield to                   Gross        Gross         Estimated
                                      Maturity      Amortized   Unrealized Unrealized         Market
                                      at Market       Cost        Gains       Losses           Value

         U.S. TREASURY
          SECURITIES:
          Maturities up to one year      5.56 % $ 1,515,063     $ 30,843      $    -        $ 1,545,906
          Maturities after one year
           through five years            5.10 %     2,133,515      73,017                    2,206,532

               Total                              $ 3,648,578   $ 103,860     $    -        $ 3,752,438
     Total investment purchases during 2002 and 2001 were approximately $2.5 billion and $1.3 billion,
     respectively. Investment maturities during 2002 and 2001 were approximately $1.6 billion and
     $1.2 billion, respectively. The Fund has the capability and management has the intention to hold all
     investments held at December 31, 2002 and 2001, to maturity. There were no investment sales during
     2002 and 2001.
7.    AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United
     States, upon authorization by the NCUA Board, up to a maximum of $100,000,000. The NCUA
     Central Liquidity Facility (“CLF”) is authorized to make advances to the Fund under terms and
     conditions established by the NCUA Board. No borrowings were obtained from these sources during
     2002 and 2001.
8.    TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The
     NCUA Operating Fund charges the Fund for these services based on an annual allocation factor
     approved by the NCUA Board derived from a study of actual usage conducted by the management of
     these Funds. The allocation factors were 62.00% and 66.72% to the Fund for 2002 and 2001,
     respectively. The cost of services provided by the NCUA Operating Fund was approximately
     $83,182,000 and $88,508,000 for 2002 and 2001, respectively, and includes pension contributions of



- 11 -
    approximately $6,685,000 and $6,879,000 to the Civil Service Retirement System and Federal
    Employees Retirement System defined benefit retirement plans for 2002 and 2001, respectively.
    In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with the NCUA
    Operating Fund. Interest received was approximately $46,000 and $66,000 for 2002 and 2001,
    respectively. The note receivable balances at December 31, 2002 and 2001, were approximately
    $1,098,000 and $1,170,000, respectively.
    In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
    term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund
    as needed to fund the costs of constructing a new building. Interest income was approximately
    $1,164,000 and $1,629,000 for 2002 and 2001, respectively. The note receivable balances at
    December 31, 2002 and 2001, were approximately $27,824,000 and $29,165,000, respectively.
    The above notes mature as follows (in thousands):
                                                                  Unsecured     Secured
                                                                  Term Note    Term Note       Total
         2003                                                      $    72      $ 1,341      $ 1,413
         2004                                                           72        1,341        1,413
         2005                                                           72        1,341        1,413
         2006                                                           72        1,341        1,413
         2007                                                           72        1,341        1,413
         Thereafter                                                    738       21,119       21,857
                 Total                                             $ 1,098      $ 27,824     $ 28,922
    The variable rate on both term notes is equal to the Fund’s prior-month yield on investments. The
    average interest rates during 2002 and 2001 were approximately 4.09% and 5.47%, respectively. At
    December 31, 2002 and 2001, the rates were 3.51% and 4.56%, respectively.
    The NCUA Operating Fund leases certain office space and equipment under operating lease
    agreements that expire through 2007. Based on the allocation factor determined by the NCUA’s
    Board, the Fund reimburses the NCUA Operating Fund approximately 62.00% of the total lease
    payments. The cost of services provided by the NCUA Operating Fund includes rental charges of
    approximately $625,500 and $654,500 for 2002 and 2001, respectively.

    The NCUA Operating Fund’s total future minimum lease payments on operating leases as of
    December 31, 2002, are as follows (in thousands):
         2003                                                                                 $ 828
         2004                                                                                   858
         2005                                                                                   346
         2006                                                                                   199
         2007                                                                                   183

         Total                                                                                $ 2,414




- 12 -
9.    LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into lease agreements with vendors for
     the lease of equipment that includes computers, laptops, and printers. The Fund leases computer
     equipment under capital lease agreements that expire through 2005.

     A schedule of future minimum lease payments as of December 31, 2002, is as follows (in thousands):
         2003                                                                                      $ 162
         2004                                                                                          3
         2005                                                                                          2

         Total                                                                                       167

         Less: Imputed interest                                                                        (2)
         Present value of net minimum lease payments                                               $ 165

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows:

                                               December 31, 2002                   December 31, 2001
                                             Carrying        Fair                Carrying        Fair
                                             Amount         Value                Amount         Value
         Investments                       $ 4,535,537     $ 4,627,939         $ 3,648,578      $ 3,752,438
         Cash and cash equivalents           1,008,693       1,008,693           1,335,753        1,335,753
         Accrued interest receivable            69,174          69,174              67,178           67,178
         Capital assessment receivable           3,697           3,697
         Notes receivable—NCUA
           Operating Fund                      28,922           28,922              30,335          30,335
         Amounts due to insured
           shareholders of liquidated
           credit unions                         6,228           6,228               6,092            6,092
         Due to NCUA Operating Fund                670             670               1,723            1,723
         Accounts payable                            3               3                  64               64
         Lease obligation                          165             165                 793              793
11. CONCENTRATIONS

     There are no significant concentrations of member share deposits within any region of the United States.
     Concentrations of member shares do exist within the manufacturing, governmental, and educational
     industries.
12. CONTINGENCIES

     NCUA is currently a party to a number of disputes that involve or may involve litigation. In the opinion
     of management, the ultimate liability with respect to these disputes, if any, will not be material to
     NCUA’s financial position.




- 13 -
13. SUBSEQUENT EVENTS

    NCUA announced on January 29, 2003 a regional restructuring plan, previously approved by the
    Board on November 21, 2002. The restructuring plan will relocate the Region VI office in Concord,
    California, to Phoenix, Arizona and renumber it to Region V. The plan will also close the Region IV
    regional office in Chicago, Illinois. The process of relocating Region VI will begin immediately and be
    completed no later than December 2004. Region V, located in Austin, Texas, will be renumbered to
    become Region IV. Credit union supervision will be aligned with the five regions, and this alignment is
    scheduled to become effective as of January 1, 2004.

    NCUA estimates that the cost to be incurred for the regional restructuring plan will be $7,466,000,
    which includes relocation costs of $6,016,000 and severance costs of $980,000. The majority of the
    costs are anticipated to be incurred during 2003 and 2004 by the NCUA Operating Fund. Based on
    the allocation factors approved by the NCUA Board, the NCUA Operating Fund will charge 62.00%
    of the total restructuring costs, or $4,629,000, to the Fund.
                                                 ******




- 14 -
National Credit Union
Administration
Central Liquidity Facility
Financial Statements for the Years Ended
December 31, 2002 and 2001, and
Independent Auditors’ Reports




- 15 -
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                       Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS
 FOR THE YEARS ENDED DECEMBER 31, 2002 AND 2001         1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
 DECEMBER 31, 2002 AND 2001:

 Balance Sheets                                         2

 Statements of Operations                               3

 Statements of Members’ Equity                          4

 Statements of Cash Flows                               5

 Notes to Financial Statements                         6-9




7159 – 11\01
Deloitte & Touche LLP
1750 Tysons Boulevard
McLean, VA 22102-4219

Tel: 703-251-1000
Fax: 703-251-3400
www.us.deloitte.com




 INDEPENDENT AUDITORS’ REPORT


 Inspector General
 National Credit Union Administration

 We have audited the accompanying balance sheets of the National Credit Union Administration Central
 Liquidity Facility (“CLF”) as of December 31, 2002 and 2001, and the related statements of operations,
 members’ equity, and cash flows for the years then ended. These financial statements are the responsibility of
 CLF’s management. Our responsibility is to express an opinion on these financial statements based on our
 audits.

 We conducted our audits in accordance with auditing standards generally accepted in the United States of
 America and the standards applicable to financial audits contained in Government Auditing Standards,
 issued by the Comptroller General of the United States. Those standards require that we plan and perform the
 audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
 An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
 statements. An audit also includes assessing the accounting principles used and significant estimates made by
 management, as well as evaluating the overall financial statement presentation. We believe that our audits
 provide a reasonable basis for our opinion.

 In our opinion, such financial statements present fairly, in all material respects, the financial position of the
 National Credit Union Administration Central Liquidity Facility as of December 31, 2002 and 2001, and the
 results of its operations and its cash flows for the years then ended in conformity with accounting principles
 generally accepted in the United States of America.

 In accordance with Government Auditing Standards, we have also issued our report dated February 28,
 2003, on our tests of the National Credit Union Administration Central Liquidity Facility’s compliance with
 certain provisions of laws, regulations, contracts, and grants and on our consideration of its internal control
 over financial reporting. That report is an integral part of an audit performed in accordance with Government
 Auditing Standards and should be read in conjunction with this report in considering the results of our audit.




 February 28, 2003
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
DECEMBER 31, 2002 AND 2001
(Dollars in thousands)

ASSETS                                          2002           2001

ASSETS:
 Cash                                     $         11    $       13
 Investments with U.S. Central Credit
  Union (Notes 5, 8, and 9)                   1,081,362       979,922
 Accrued interest receivable                      5,042         5,095

TOTAL ASSETS                              $ 1,086,415     $ 985,030


LIABILITIES AND MEMBERS' EQUITY

LIABILITIES:
 Member deposits (Note 7)                 $     13,905    $ 16,817
 Accounts payable and other liabilities            108         102

       Total liabilities                        14,013         16,919

MEMBERS' EQUITY:
 Capital stock—required (Note 7)              1,060,995       956,709
 Retained earnings                               11,407        11,402

       Total members' equity                  1,072,402       968,111

TOTAL LIABILITIES AND MEMBERS' EQUITY     $ 1,086,415     $ 985,030


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)


                                            2002       2001

REVENUE—Investment income                 $ 21,965   $ 35,012

EXPENSES (Note 10):
 Operating expenses:
  Group agent service fee                       2          2
  Personnel services                          124        110
  Other services                               40         37
  Rent, communications, and utilities          10          8
  Personnel benefits                           25         23
  Supplies and materials                        2          2
  Printing and reproduction                     4          3

       Total operating expenses               207        185

  Interest—Federal Financing Bank notes                   46
  Interest—member deposits                    169        212

       Total expenses                         376        443

EXCESS OF REVENUE OVER EXPENSES           $ 21,589   $ 34,569


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS' EQUITY
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)

                                           Capital     Retained
                                           Stock       Earnings

BALANCE AT JANUARY 1, 2001               $ 892,175     $ 11,402

 Issuance of required capital stock          69,600

 Redemption of required capital stock        (5,066)

 Dividends                                              (34,569)

 Excess of revenue over expenses                         34,569

BALANCE AT DECEMBER 31, 2001                956,709      11,402

 Issuance of required capital stock         105,519

 Redemption of required capital stock        (1,233)

 Dividends                                              (21,584)

 Excess of revenue over expenses                         21,589

BALANCE AT DECEMBER 31, 2002             $ 1,060,995   $ 11,407


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2002 AND 2001
(Dollars in thousands)

                                                                        2002            2001

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenue over expenses                                   $ 21,589        $ 34,569
 Adjustments to reconcile excess of revenue over expenses
  to net cash provided by operating activities:
   Decrease in accrued interest receivable                                  53          7,873
   Increase (decrease) in accounts payable and other liabilities             6             (5)

       Net cash provided by operating activities                        21,648         42,437

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments—net                                           (101,440)       (60,413)

       Net cash used in investing activities                           (101,440)       (60,413)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                            2,226           2,790
 Issuance of required capital stock                                    105,519          69,600
 Dividends                                                             (21,584)        (34,569)
 Withdrawal of member deposits                                          (5,138)        (14,780)
 Redemption of required capital stock                                   (1,233)         (5,066)

       Net cash provided by financing activities                        79,790         17,975

NET DECREASE IN CASH                                                         (2)            (1)

CASH, BEGINNING OF YEAR                                                     13             14

CASH, END OF YEAR                                                  $        11     $       13


SUPPLEMENTAL DISCLOSURE OF CASH
 FLOW INFORMATION:
 Interest paid during the years ended December 31, 2002 and
  2001, was $-0- and $46, respectively.


See notes to financial statements.




-5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2002 AND 2001


1.    ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (“CLF”) was created by the
     National Credit Union Central Liquidity Facility Act (the “Act”). The CLF is designated as a mixed-
     ownership government corporation under the Government Corporation Control Act. The CLF exists
     within the National Credit Union Administration (“NCUA”) and is managed by the National Credit
     Union Administration Board. The CLF became operational on October 1, 1979.

     The purpose of the CLF is to improve general financial stability by meeting the liquidity needs of credit
     unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.    SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting—The CLF maintains its accounting records on the accrual basis of accounting.
     Loans and Allowance for Loan Losses—Loans, when made to members, are on a short-term or
     long-term basis. For all loans, the CLF may obtain a security interest in the assets of the borrower. In
     determining the allowance for loan losses, when applicable, the CLF evaluates the collectibility of its
     loans to members through examination of the financial condition of the individual borrowing credit unions
     and the credit union industry in general.
     Investments—The CLF invests in redeposits and share accounts at U.S. Central Credit Union (see
     Notes 5 and 8). All other investments are short-term with no maturities in excess of one year. All
     investments are classified as held-to-maturity under Statement of Financial Accounting Standards
     No. 115, Accounting for Certain Investments in Debt and Equity Securities. Accordingly, the
     CLF records investments at amortized cost. Amortized cost is the face value of the securities plus the
     unamortized premium or less the unamortized discount.
     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:
      a.   Cash—The carrying amounts for cash approximate fair value.

      b.   Investments—Securities held have maturities of one year or less and, as such, the carrying amounts
           approximate fair value.

      c.   Loans—For loans advanced to member credit unions, the carrying amounts approximate fair value.

      d.   Member Deposits—Funds maintained with the CLF in excess of required capital amounts are
           recorded as member deposits. These deposits are due upon demand and the carrying amounts
           approximate the fair value.


-6-
      e.     FFB Notes Payable—For notes issued to the Federal Financing Bank, when applicable, the
             carrying amounts approximate fair value.

      f.     Other—Accrued interest receivable, accounts payable and other liabilities are recorded at book
             values, which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.
3.    GOVERNMENT REGULATIONS

     The CLF is subject to various Federal laws and regulations. The CLF’s operating budget requires
     Congressional approval, and the CLF may not make loans to members for the purpose of expanding
     credit union loan portfolios. The CLF’s investments are restricted to obligations of the United States
     Government and its agencies, deposits in Federally insured financial institutions, and shares and deposits
     in credit unions. Borrowing is limited by statute to twelve times the subscribed capital stock and
     surplus. However, there is a Congressional limitation of $1.5 billion on funds that are borrowed and
     then loaned out at any one point in time.

     At December 31, 2002 and 2001, the CLF was in compliance with its borrowing authority.
4.    LOANS TO MEMBERS

     There were no loans or loan commitments outstanding at December 31, 2002 and 2001. The CLF can
     provide members with extended loan commitments.

5.    FUNDS ON DEPOSIT WITH U.S. CENTRAL CREDIT UNION

     Funds not currently required for operations are invested as follows (in thousands):
                                                                                        December 31,
                                                                                      2002        2001
           U.S. Central Credit Union (see Note 8):
            Redeposit account                                                     $ 1,081,362      $ 915,246
            Share accounts                                                                            64,676
                                                                                  $ 1,081,362      $ 979,922

6.    BORROWING AUTHORITY

     The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF in the
     event that the Board certifies to the Secretary that the CLF does not have sufficient funds to meet the
     liquidity needs of credit unions. This authority to lend is limited to such extent and in such amounts as
     are provided in advance by Congressional Appropriation Acts. On December 23, 1981, the President
     signed PL 97-101, which provided $100 million of permanent indefinite borrowing authority that may
     be provided by the Secretary of the Treasury to the CLF to meet emergency liquidity needs of credit
     unions. On May 21, 1999, the President signed a mid-year spending bill (HR 1141) that authorized the
-7-
     CLF to fully utilize its borrowing authority under the Federal Credit Union Act. Borrowings would be
     from the Federal Financing Bank with interest generally payable upon maturity (see Note 12).
7.    CAPITAL STOCK AND MEMBER DEPOSITS

     The required capital stock account represents subscriptions remitted to the CLF by member credit
     unions. Regular members’ required subscription amounts equal one-half of one percent of their paid-in
     and unimpaired capital and surplus, one-half of which is required to be remitted to the CLF. Agent
     members’ required subscription amounts equal one-half of one percent of the paid-in and unimpaired
     capital and surplus of all of the credit unions served by the agent member, one-half of which is required
     to be remitted to the CLF. In both cases, the remaining one-half of the subscription is required to be
     held in liquid assets by the member credit unions subject to call by the National Credit Union
     Administration Board. These unremitted subscriptions are not reflected in the CLF’s financial
     statements. Subscriptions are adjusted annually to reflect changes in the member credit unions’ paid-in
     and unimpaired capital and surplus. Dividends are declared and paid on required capital stock.
     Member deposits represent amounts remitted by members over and above the amount required for
     membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
     required capital stock.
8.    U.S. CENTRAL CREDIT UNION MEMBERSHIP

     During fiscal year 1984, the CLF accepted a membership request from U.S. Central Credit Union
     (“USC”) on behalf of its corporate credit union members. At December 31, 2002 and 2001,
     $1,015,902,000 and $915,246,000, respectively, of the required portion of subscribed capital stock
     were purchased from the CLF by USC on behalf of its member credit unions. The CLF has 32 and 33
     corporate credit union members as of December 31, 2002 and 2001, respectively.
     In addition, by accepting the USC membership request, the CLF was initially committed to reinvest all
     but $50,000,000 of its total share capital in USC at market rates of interest. Beginning April 1, 1996,
     the CLF reinvests all of its agent member share capital in USC at market rates of interest. At
     December 31, 2002 and 2001, approximately $1,081,362,000 and $979,922,000, respectively, were
     invested in USC accounts at 1.85% and 2.06%, respective yields.
9.    CONCENTRATION OF CREDIT RISK

     At December 31, 2002 and 2001, the CLF has a concentration of credit risk for its investments on
     deposit with USC of approximately $1,081,362,000 and $979,922,000, respectively (see Notes 5 and
     8).
10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

     The National Credit Union Administration provides the CLF with data processing and other
     miscellaneous services and supplies. In addition, the National Credit Union Administration pays CLF’s
     employees’ salaries and benefits as well as the CLF’s portion of monthly building operating costs. The
     CLF reimburses the National Credit Union Administration on a monthly basis for these items. Total
     reimbursements for the years ended December 31, 2002 and 2001, amounted to approximately
     $205,000 and $183,000, respectively.


-8-
11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

  The carrying amount and the estimated fair value of the CLF’s financial instruments are as follows (in
  thousands):
                                                   December 31, 2002            December 31, 2001
                                                Carrying         Fair          Carrying      Fair
                                                Amount         Value           Amount       Value

      Cash                                  $          11    $          11    $        13    $        13
      Investments                               1,081,362        1,081,362        979,922        979,922
      Accrued interest receivable                   5,042            5,042          5,095          5,095
      Member deposits                              13,905           13,905         16,817         16,817
      Accounts payable and
       other liabilities                             108              108            102            102

12. SHORT-TERM REVOLVING CREDIT FACILITY

  On July 15, 1999, the National Credit Union Administration signed a note purchase agreement with the
  Federal Financing Bank on behalf of CLF. The agreement originally provided for a commitment amount
  of $20.7 billion. Subsequently, the agreement expired on September 30, 2002, and was extended
  through consecutive short-term revolving credit facility promissory notes. These promissory notes
  reduced the credit facility to $5 billion and expire yearly on the 31st of March. The current promissory
  note expires March 31, 2003.
                                                ******




-9-
National Credit Union
Administration
Community Development
Revolving Loan Fund
Financial Statements for the Years Ended
December 31, 2002 and 2001, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS

                                                       Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS    1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2002 AND 2001:

   Balance Sheets                                       2

   Statements of Operations                             3

   Statements of Changes in Fund Balance                4

   Statements of Cash Flows                             5

   Notes to Financial Statements                        6-9




7160 – 11/01
Deloitte & Touche LLP
1750 Tysons Boulevard
McLean, VA 22102-4219

Tel: 703-251-1000
Fax: 703-251-3400
www.us.deloitte.com




 INDEPENDENT AUDITORS’ REPORT


 Inspector General
 National Credit Union Administration

 We have audited the accompanying balance sheets of the National Credit Union Administration Community
 Development Revolving Loan Fund (“CDRLF”) as of December 31, 2002 and 2001, and the related
 statements of operations, changes in fund balance, and cash flows for the years then ended. These financial
 statements are the responsibility of the CDRLF’s management. Our responsibility is to express an opinion on
 these financial statements based on our audits.

 We conducted our audits in accordance with auditing standards generally accepted in the United States of
 America and the standards applicable to financial audits contained in Government Auditing Standards, issued
 by the Comptroller General of the United States. Those standards require that we plan and perform the audit
 to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
 audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
 statements. An audit also includes assessing the accounting principles used and significant estimates made by
 management, as well as evaluating the overall financial statement presentation. We believe that our audits
 provide a reasonable basis for our opinion.

 In our opinion, such financial statements present fairly, in all material respects, the financial position of the
 National Credit Union Administration Community Development Revolving Loan Fund as of December 31,
 2002 and 2001, and the results of its operations and its cash flows for the years then ended in conformity with
 accounting principles generally accepted in the United States of America.

 In accordance with Government Auditing Standards, we have also issued our report dated February 28,
 2003, on our tests of the National Credit Union Administration Community Development Revolving Loan
 Fund’s compliance with certain provisions of laws, regulations, contracts, and grants and on our consideration
 of its internal control over financial reporting. That report is an integral part of an audit performed in
 accordance with Government Auditing Standards and should be read in conjunction with this report in
 considering the results of our audit.




 February 28, 2003
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
DECEMBER 31, 2002 AND 2001

ASSETS                                      2002             2001

 Cash and cash equivalents (Note 2)   $ 5,496,705      $ 4,857,810
 Loans—net of allowance (Note 4)        7,754,404        8,839,573
 Interest receivable                       40,087           56,353

TOTAL ASSETS                          $ 13,291,196     $ 13,753,736


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accrued technical assistance         $     106,978    $     196,400

       Total liabilities                    106,978          196,400

FUND BALANCE:
 Revolving fund capital (Note 3)          12,303,548       12,745,669
 Accumulated earnings                        880,670          811,667

       Total fund balance                 13,184,218       13,557,336

TOTAL LIABILITIES AND FUND BALANCE    $ 13,291,196     $ 13,753,736


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2002 AND 2001

                                           2002         2001

SUPPORT AND REVENUES:
 Interest on cash equivalents            $ 97,588     $ 64,431
 Interest on loans                        158,188      236,966
 Appropriation revenue                    442,121      248,531

       Total                              697,897       549,928

EXPENSES:
 Technical assistance                     (542,067)    (313,770)
 Provision for loan losses                 (86,827)     (47,514)

       Total                              (628,894)    (361,284)

EXCESS OF SUPPORT AND REVENUES
 OVER EXPENSES                           $ 69,003     $ 188,644


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2002 AND 2001

                                                        2002           2001

FUND BALANCE, BEGINNING OF YEAR                     $ 13,557,336   $11,619,223

   Change in unexpended appropriations:
    Operating appropriations received (Note 3)                         700,000
    Appropriation revenue recognized (Note 3)          (442,121)      (248,531)

   Appropriations—revolving fund capital (Note 3)                    1,298,000

  Excess of support and revenues over expenses           69,003        188,644

FUND BALANCE, END OF YEAR                           $ 13,184,218   $ 13,557,336


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2002 AND 2001

                                                                  2002              2001

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of support and revenues over expenses               $      69,003     $     188,644
 Adjustments to reconcile the excess of support
  and revenues over expenses to net cash
  (used in) provided by operating activities:
  Change in unexpended appropriations                            (442,121)          451,469
  Provision for loan losses                                        86,827            47,514
  Changes in assets and liabilities:
   Decrease in interest receivable                                 16,266            26,647
   (Decrease) increase in accrued technical assistance            (89,422)           92,029

      Net cash (used in) provided by operating activities        (359,447)          806,303

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                       3,717,342         3,951,898
 Loan disbursements                                             (2,719,000)       (2,407,000)

       Net cash provided by investing activities                  998,342         1,544,898

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received—revolving fund capital                                   1,298,000

       Net cash provided by financing activities                      -           1,298,000

NET INCREASE IN CASH AND CASH EQUIVALENTS                         638,895         3,649,201

CASH AND CASH EQUIVALENTS,
 BEGINNING OF YEAR                                              4,857,810         1,208,609

CASH AND CASH EQUIVALENTS, END OF YEAR                      $ 5,496,705       $ 4,857,810


See notes to financial statements.




-5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2002 AND 2001


1.    NATURE OF ORGANIZATION

     The Community Development Revolving Loan Fund for Credit Unions (“CDRLF”) was established
     by an act of Congress (Public Law 96-124, November 20, 1979) to stimulate economic
     development in low-income communities. The National Credit Union Administration (“NCUA”)
     and the Community Services Association (“CSA”) jointly adopted Part 705 of NCUA Rules and
     Regulations, governing administration of the Fund, on February 28, 1980.
     Upon the dissolution of CSA in 1983, administration of the CDRLF was transferred to the
     Department of Health and Human Services (“HHS”). Because HHS never promulgated final
     regulations governing the administration of the CDRLF, the Fund was dormant.
     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
     transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to
     Part 705 of NCUA Rules and Regulations on September 16, 1987, and began making
     loans/deposits to participating credit unions in 1990.
     The purpose of the CDRLF is to stimulate economic activities in the communities served by
     low-income credit unions which will result in increased income, ownership and employment
     opportunities for low-wealth residents and other economic growth. The policy of NCUA is to
     revolve the loans to qualifying credit unions as often as practical in order to gain maximum impact on
     as many participating credit unions as possible.
2.    SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting—The CDRLF reports its financial statements on the accrual basis of
     accounting.
     Cash Equivalents—The Federal Credit Union Act permits the CDRLF to make investments in
     United States Government Treasury securities. All investments in 2002 and 2001 were cash
     equivalents and are stated at cost which approximates fair value. Cash equivalents are highly liquid
     investments with original maturities of three months or less.
     Allowance for Loan Losses—The CDRLF records a provision for estimated loan losses. Loans
     considered to be uncollectible are charged to the allowance for loan losses. Management
     continually evaluates the adequacy of the allowance for loan losses based upon prevailing
     circumstances and an assessment of collectibility risk of the total loan portfolio. Accrual of interest
     is discontinued on non-performing loans when management believes collectibility is doubtful. At
     December 31, 2002 and 2001, there were no nonaccrual loans.
     Salary and Operating Expenses—NCUA provides certain general and administrative support to
     the CDRLF, including office space, salaries, and certain supplies. The value of these contributed
     services is not charged to the CDRLF.

-6-
     Revenue Recognition—Appropriation revenue is recognized as the related technical assistance
     expense is recognized. Total appropriation revenues will differ from total technical assistance
     expenses because not all technical assistance is funded by appropriations.
     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent
     assets and liabilities at the date of the financial statements and the reported amounts of revenues and
     expenses during the reporting period. Actual results could differ from management’s estimates.
3.    GOVERNMENT REGULATIONS

     The CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending
     and technical assistance, is limited by Congress to a total of the $12,303,548 appropriated for the
     CDRLF plus accumulated earnings. Included in this amount is $1,998,000 that was made available
     in 2001 in accordance with Public Law Nos. 107-73 and 106-377 for loans and technical
     assistance. Federally chartered and state-chartered credit unions may participate in the CDRLF’s
     Community Loan Fund. Loans may only be made to low-income credit unions as defined by the
     NCUA.
     NCUA Rules and Regulations section 705.7 permit the classification of the loan in the participating
     credit union’s accounting records as either a note payable or a nonmember deposit. As a
     nonmember deposit, an amount not to exceed $100,000 per credit union is insured by the National
     Credit Union Share Insurance Fund (“NCUSIF”). The covered amount of loans recorded as
     nonmember deposits by participating credit unions insured by the NCUSIF totaled approximately
     $6,188,000 and $5,943,000 at December 31, 2002 and 2001, respectively. Under the CDRLF
     Loan Program, loans recorded in the credit union’s accounting records as notes payable may be
     collateralized.
     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued between
     January 1, 1995, and December 31, 1998, carry a fixed interest rate of 3%; loans issued between
     January 1, 1999, and December 31, 2001, carry a fixed rate of 2%; and loans issued after January 1,
     2002, carry a fixed rate of 1%. Interest and principal are repaid on a semiannual basis beginning six
     months and one year, respectively, after the initial distribution of the loan. The maximum term of each
     loan is five years. Participating credit unions are required to match the value of the loan within one
     year of the date of approval of the loan.
     During the year ended December 31, 2001, appropriations for loans and technical assistance in the
     amount of $1,998,000 were received. Of this amount, $700,000 was designated to be used as
     operating appropriations for technical assistance and $1,298,000 was designated to be used as
     revolving fund capital. For the appropriations received, all monies do not expire and are not required
     to be returned.
                                                                    Public Law     Public Law
        Activities by each appropriation, from inception            No. 107-73     No. 106-377         Total

          Operating appropriation received                         $ 350,000       $ 350,000       $ 700,000
          Appropriation revenue recognized                          (340,652)       (350,000)       (690,652)

          Balance, December 31, 2002                               $    9,348      $     -         $   9,348


-7-
                                                                                2002              2001

        Unexpended appropriations:
         Balance, beginning of the year                                    $    451,469      $        -
         Operational appropriations received                                                      700,000
         Appropriation revenue recognized                                      (442,121)         (248,531)

         Balance, end of year                                              $      9,348      $    451,469

        Revolving fund capital:
         Balance, beginning of the year                                    $ 12,745,669      $ 10,996,200
         Appropriations—revolving fund capital                                                  1,298,000
         Change in unexpended appropriations                                   (442,121)          451,469

         Balance, end of year                                              $ 12,303,548      $ 12,745,669




4.    LOANS

     Loans outstanding at December 31, 2002 and 2001, are scheduled to be repaid during the
     following subsequent years:
                                                                                 2002             2001

            Year 1                                                           $ 2,213,135     $ 2,605,900
            Year 2                                                             2,067,690       2,125,100
            Year 3                                                             2,008,000       1,492,100
            Year 4                                                               951,400       1,353,800
            Year 5                                                               814,030       1,475,697

                                                                               8,054,255         9,052,597
             Less: Allowance for loan losses                                   (299,851)         (213,024)

             Net loans outstanding                                           $ 7,754,404     $ 8,839,573

     Changes in the allowance for loan losses are summarized below:
                                                                                     2002           2001
        Balance, beginning of year                                               $ 213,024       $ 200,719
        Provision for loan losses                                                   86,827          47,514
        Loans written off                                                                          (35,209)
        Balance, end of year                                                     $ 299,851       $ 213,024



5.    CONCENTRATION OF CREDIT RISK

     At December 31, 2002 and 2001, there are no significant concentrations of credit risk in the loan
     portfolio. As discussed in Note 1, the CDRLF provides loans to credit unions that serve
     predominantly low-income communities.


-8-
6.    ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in accordance
     with the requirements of Statement of Financial Accounting Standards No. 107, Disclosures about
     Fair Value of Financial Instruments. The methods and assumptions used in estimating the fair
     value disclosures for financial instruments are as follows:

     Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate
     fair values.

     Interest Receivable and Accrued Technical Assistance—Such items are recorded at book
     values, which approximate the respective fair values.

     Loans—The fair value is estimated by discounting projected future cash flows using current market
     interest rates. For purposes of this calculation, the discount rate used was the prime interest rate
     plus two percent (6.25% at December 31, 2002 and 6.75% at December 31, 2001).

     The carrying amount and the estimated fair value of the CDRLF’s financial instruments are as
     follows:
                                                      December 31, 2002               December 31, 2001
                                                     Carrying   Estimated            Carrying   Estimated
                                                     Amount     Fair Value           Amount     Fair Value

        Assets:
         Cash and cash equivalents               $ 5,496,705     $ 5,496,705     $ 4,857,810    $ 4,857,810

         Interest receivable                     $     40,087    $   40,087      $     56,353   $    56,353

         Loans                                   $ 8,054,225     $ 7,681,555     $ 9,052,597    $ 8,680,264
         Allowance for loan losses                  (299,851)       (299,851)       (213,024)      (213,024)

         Loans, net of allowance                 $ 7,754,404     $ 7,381,704     $ 8,839,573    $ 8,467,240

        Liabilities:
         Accrued technical assistance            $ 106,978       $ 106,978       $ 196,400      $ 196,400


     It is the intent of the CDRLF to hold its loans to maturity. The CDRLF anticipates realizing the
     carrying amount in full. Fair value is less than the carrying amount because loans are made at less
     than market interest rates.
                                                ******




-9-
